No. 20IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
_________________________________________________________
JOHN ESPOSITO,
Petitioner,
-vBENJAMIN FORD, Warden,
Georgia Diagnostic and Classification Prison,
Respondent
__________________________________________________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
__________________________________________________________
Petitioner John Esposito, through undersigned counsel, moves pursuant to Supreme Court
Rule 39.1 for leave to proceed in forma pauperis in his concurrently filed Petition for Writ of
Certiorari. Mr. Esposito is indigent and has been appointed counsel in state and federal court.
As to his federal proceedings, the United States District Court for the Middle District of
Georgia issued an order appointing counsel pursuant to 18 U.S.C. § 3599. See attached Order, at
Appendix A. The Eleventh Circuit Court of Appeals likewise issued an order appointing counsel
pursuant to 18 U.S.C. § 3599. See attached Order, at Appendix B.
Undersigned counsel hereby certify that Mr. Esposito remains indigent. Mr. Esposito
requests that this Court allow him to proceed in forma pauperis.
Respectfully submitted,
/s/ Marcia A. Widder
Marcia A. Widder (Ga. 643407)
Counsel of Record
Akiva Freidlin (Ga. 692290)
Georgia Resource Center

104 Marietta Street NW, Suite 260
Atlanta, Georgia 30303
marcy.widder@garesource.org
akiva.freidlin@garesource.org
(404) 222-9202
COUNSEL FOR PETITIONER

APPENDIX A

Case 5:12-cv-00163-CAR Document 9

Filed 05/18/12 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
JOHN ANTHONY ESPOSITO,
Petitioner
vs.
CARL HUMPHREY, Warden,
Respondent

:
:
:
:
:
:
:
:
:
:

CIVIL ACTION NO.: 5:12-CV-163 (CAR)

ORDER
Petitioner has filed a Motion for Appointment of Counsel pursuant to the provisions in 18
U.S.C. § 3599.
I. PROCEDURAL HISTORY
Petitioner filed his motion for appointment of counsel along with his Petition for Writ of
Habeas Corpus under 28 U.S.C. § 2254. According to his federal habeas corpus petition, Petitioner
is a prisoner in the custody of the State of Georgia pursuant to a judgment entered September 30,
1998. Petitioner received a sentence of death for one court of malice murder; life imprisonment for
one court of armed robbery; and twenty years imprisonment for hijacking a motor vehicle.
Petitioner appealed and the Supreme Court of Georgia affirmed his conviction and sentence
on October 30, 2000 and denied his motion for reconsideration on November 30, 2000. Esposito
v. State, 273 Ga. 183 (2000).
Following a denial of certiorari by the United States Supreme Court on June 25, 2001 and
denial of a request for rehearing, Petitioner filed a habeas corpus petition in the Butts County
Superior Court on May 3, 2002. He amended the petition once, the court conducted an evidentiary

Case 5:12-cv-00163-CAR Document 9

Filed 05/18/12 Page 2 of 6

hearing, and denied the writ as to Petitioner’s conviction and sentence on April 29, 2011.
The Georgia Supreme Court denied Petitioner’s Application for Certificate of Probable
Cause to Appeal on March 19, 2012.
On May 8, 2012, Petitioner filed a Petition for Writ of Habeas Corpus by a Person in State
Custody in this Court pursuant to 28 U.S.C. § 2254.
II. APPOINTMENT OF COUNSEL
18 U.S.C. § 3599 (a) (2) provides as follows:
In any post conviction proceeding under section 2254 or 2255 of Title 28,
United States Code, seeking to vacate or set aside a death sentence, any defendant
who is or becomes financially unable to obtain adequate representation or
investigative, expert, or other reasonably necessary services shall be entitled to the
appointment of one or more attorneys and the furnishing of such other services in
accordance with subsection (b) through (f).
18 U.S.C. § 3599 (a)(2). In this case, Petitioner has filed a Motion for Appointment of Counsel,
Motion for Leave to Proceed In Forma Pauperis,1 and a Petition for Writ of Habeas Corpus under
28 U.S.C. § 2254. Petitioner’s filings show that he is financially unable to obtain adequate
representation. Under these circumstances, Petitioner is entitled to appointment of counsel under
18 U.S.C. § 3599 (a)(2).
Having concluded that Petitioner is entitled to appointment of counsel, the Court must next
determine whether 18 U.S.C. § 3599 permits it to appoint Petitioner’s requested counsel–Georgia
Resource Center of Atlanta, Georgia (hereinafter “Resource Center”), specifically Brian S. Kammer
and Kirsten Salchow, both of whom are attorneys with the Resource Center. Because of the
seriousness of the death penalty and the unique and complex nature of this kind of litigation, counsel
must have a certain level of experience before being eligible for appointment under § 3599. For
1

Petitioner’s Motion to Proceed In Forma Pauperis (R. at 2) is GRANTED.

2

Case 5:12-cv-00163-CAR Document 9

Filed 05/18/12 Page 3 of 6

post-judgment appointments, as in this case, “at least one attorney so appointed must have been
admitted to practice in the court of appeals for not less than five years, and must have had not less
than three years experience in the handling of appeals in that court in felony cases.” 18 U.S.C. §
3599 (c). Based on the Affidavit submitted by Mr. Kammer, it appears that he has the appropriate
experience to qualify for appointment under § 3599 (c). Additionally, Kirsten Salchow qualifies for
appointment under 18 U.S.C. § 3599 (d) as she has the “background, knowledge, or experience that
would enable . . . her to properly represent the defendant.” Id. Moreover, it appears that both Mr.
Kammer and Ms. Salchow are familiar with the facts and procedural history of Petitioner’s case
because the Resource Center has represented Mr. Esposito since 2000. Given this, Petitioner’s
Motion for Appointment of Counsel is GRANTED and Brian S. Kammer and Kirsten Salchow are
appointed to represent Petitioner in his federal habeas corpus action.
The next issue that must be determined is the rate at which counsel will be compensated.
It appears that the Administrative Office of the United States Courts has approved $178.00 an hour,
for both in-court and out-of-court time. Therefore, the Court finds that it is appropriate to
compensate Brian S. Kammer and Kirsten Salchow at a rate of $178.00 per hour.
Counsel is reminded that they may obtain investigative, expert, or other services that are
reasonably necessary for his representation of Petitioner; but they must obtain prior approval from
the Court for such services. 18 U.S.C. § 3599 (f).

Ex parte requests for payment of fees and

expenses under § 3599 (f) may not be considered unless Petitioner makes a proper showing of the
need for confidentiality. Id. Fees and expenses for such services are limited to $7,500.00 unless
the Court certifies that a larger amount is necessary and the Chief Judge of the Eleventh Circuit
approves the larger amount. See 18 U.S.C § 3599 (g) (2),

3

Case 5:12-cv-00163-CAR Document 9

Filed 05/18/12 Page 4 of 6

The following procedures for interim payments and reimbursement of expenses shall apply
during the course of this case:
A.

Submission of Vouchers

Counsel shall submit to the Clerk’s Office in Macon, Georgia, once every month, an interim
voucher on CJA Form 30, “Death Penalty Proceedings: Appointment of and Authority to Pay Court
Appointed Counsel.” Compensation earned and reimbursable fees and expenses incurred for each
calendar month shall be claimed on an interim voucher submitted no later than the fifth day of each
subsequent month, or the first business day thereafter if the fifth day of the month is a Saturday,
Sunday, or holiday. Each interim voucher shall be numbered sequentially and shall include the time
period covered. Interim vouchers shall be submitted in accordance with this schedule and procedure
even if little or no compensation, fees, or expenses are claimed for the time period covered. All
interim vouchers shall be supported by detailed and itemized statements of time expended and fees
and expenses incurred.
After an interim voucher is submitted to the Clerk’s Office in Macon, Georgia, the Deputy
Clerk assigned to this case will submit it to the Court for approval. The Court will then review the
voucher, particularly the amount of time claimed, and will authorize compensation for the approved
number of hours and for all reimbursable fees and expenses reasonably incurred. The Court will
endeavor to review and act on each voucher within 30 days of submission.
At the conclusion of the representation, counsel shall submit a final voucher for payment of
time expended and fees and expenses incurred during the final interim time period. The final
voucher shall also set forth in detail, with supporting documentation, the time expended and fees and
expenses incurred for the entire case. The final voucher shall also reflect all compensation and

4

Case 5:12-cv-00163-CAR Document 9

Filed 05/18/12 Page 5 of 6

reimbursement previously received on the appropriate line of the form.
B.

Reimbursable Out-of-Pocket Expenses

Counsel may be reimbursed for out-of-pocket expenses (not including fees or expenses
relating to investigative, expert, or other services that are reasonably necessary for the
representation) reasonably incurred during the representation. Although neither § 3599 nor the
applicable rules and regulations limit the amount of out-of-pocket expenses that may be incurred,
counsel should not incur a single out-of-pocket expense in excess of $500.00 without prior approval
of the Court. Approval may be sought by filing an ex parte application with the Court stating (1)
the nature of the expense, (2) the estimated cost, and (3) the reason the expense is necessary to the
representation. Recurring out-of-pocket expenses, such as the cost of telephone toll calls, telegrams,
photocopies, facsimiles, and photographs, that total more than $500.00 on one or more interim
vouchers are not considered single expenses requiring prior approval of the Court.
With respect to travel outside Atlanta for the purposes of consulting with Petitioner or his
former counsel, interviewing witnesses, etc., the $500.00 rule shall be applied in the following
manner: Travel expenses, such as airfare, mileage, parking fees, meals, and lodging, may be
claimed as itemized expenses. Therefore, if the total out-of-pocket expenses for a single trip will
exceed $500.00, the travel shall require prior approval of the Court.
Case-related travel by privately owned automobile shall be claimed at the rate authorized by
the government for business-related travel by federal judiciary employees, plus parking fees, ferry
fares, and bridge, road, and tunnel tolls. For information regarding the current mileage rate for
federal judiciary employees, counsel should consult the Clerk’s Office in Macon, Georgia.
Transportation other than by privately owned automobile should be claimed on an actual-expense

5

Case 5:12-cv-00163-CAR Document 9

Filed 05/18/12 Page 6 of 6

basis. First-class air travel is prohibited.
Actual expenses incurred for meals and lodging while traveling outside Atlanta, Georgia for
case-related purposes must conform to the prevailing limitations placed upon travel and subsistence
expenses for federal judiciary employees in accordance with existing government travel regulations.
For information regarding per diem rates for federal judiciary employees, as well as for specific
details concerning high-cost areas, counsel should consult the Clerk’s Office in Macon, Georgia.
The cost of telephone toll calls, telegrams, photocopies, facsimiles, and photographs may
be reimbursable out-of-pocket expenses if they are reasonably incurred. However, general office
overhead (such as rent, secretarial assistance, and telephone service) is not reimbursable; nor are
items of a personal nature.
Finally, expenses for service of subpoenas on fact witnesses are not reimbursable out-ofpocket expenses and should not be included on any voucher. Instead, such expenses will be paid
by the United States Marshals Service, but only upon prior approval by the Court. Payment of such
expenses shall be governed by 28 U.S.C. § 1825.
SO ORDERED, this 18th day of May, 2012.

S/ C. Ashley Royal
C. ASHLEY ROYAL, JUDGE
UNITED STATES DISTRICT COURT

lnb

6

APPENDIX B

Case: 15-11384

Date Filed: 04/02/2015

Page: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.ca11.uscourts.gov

Douglas J. Mincher
Clerk of Court

April 02, 2015
Marcia A. Widder
Georgia Resource Center
303 ELIZABETH ST
ATLANTA, GA 30307
Appeal Number: 15-11384-P
Case Style: John Esposito v. Warden
District Court Docket No: 5:12-cv-00163-CAR
Party To Be Represented: John Esposito
Dear Counsel:
We are pleased to advise that you have been appointed to represent on appeal the indigent
litigant named above. This work is comparable to work performed pro bono publico. The fee you
will receive likely will be less than your customary one due to limitations on the hourly rate of
compensation contained in the Criminal Justice Act (18 U.S.C. § 3006A), and consideration of
the factors contained in Addendum Four § (g)(1) of the Eleventh Circuit Rules.
Your Criminal Justice Act (CJA) Voucher is enclosed. The following additional documents are
available on the internet at www.ca11.uscourts.gov:
x
x
x

Instructions for Completing CJA Voucher
Notice to Court-Appointed Counsel of Public Disclosure of Attorney Fee Information
Addendum Four to the Eleventh Circuit Rules entitled Eleventh Circuit Plan Under the
Criminal Justice Act

For questions concerning the CJA voucher, or if you do not have internet access and would like
copies of these documents mailed to you, you may call the CJA Clerk at 404-335-6122. For all
other questions, please call the "Reply To" number shown below.
FRAP 26.1 and the accompanying circuit rules provide that the Certificate of Interested Persons
and Corporate Disclosure Statement (CIP) must be filed with the court by every appellant,
appellee, intervenor and amicus curiae, including governmental parties. Appellants (and crossappellants) must file their CIP within 14 days of the date this appeal has been docketed, or along
with the filing in this court of any motion, petition, or pleading, whichever occurs first. The time

Case: 15-11384

Date Filed: 04/02/2015

Page: 2 of 2

for filing the opposing party's CIP or notice is set by 11th Cir. R. 26.1-2(c). In the case of
publicly traded corporations, counsel must include the stock ticker symbol after the corporate
name. See 11th Cir.R. 26.1-3(c).
On the same day the CIP is served, the party filing it must also complete the court's web-based
certificate at the Web-Based CIP link of the court's website. Pro se parties are not required or
authorized to complete the web-based certificate.
Your claim for compensation under the Act should be submitted within 60 days after issuance of
mandate or filing of a cert. petition. We request that you enclose with your completed CJA
Voucher one additional copy of each brief, petition for rehearing, and cert. petition which you
have filed. Please ensure that your voucher includes a detailed description of the work you
performed. Thank you for accepting this appointment under the Criminal Justice Act.
Sincerely,
DOUGLAS J. MINCHER, Clerk of Court
Reply to: Jan S. Camp
Phone #: (404) 335-6171
CJA-1 Appointment of Counsel Letter

Case: 15-11384

Date Filed: 04/02/2015

Page: 1 of 1

No. 20IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
_________________________________________________________
JOHN ESPOSITO,
Petitioner,
-vBENJAMIN FORD, Warden,
Georgia Diagnostic and Classification Prison,
Respondent
__________________________________________________________
CERTIFICATE OF SERVICE
__________________________________________________________
Pursuant to Supreme Court Rule 29.5(a), I certify that a copy of the Motion to Proceed In
Forma Pauperis was sent via 1st Class Mail to the U.S. Supreme Court and a digital copy was sent
to counsel for the Respondent by electronic mail on February 12, 2021. The parties have consented
to electronic service. Respondent’s counsel’s name, address and telephone number are set forth
below:
Sabrina D. Graham, Esp.
Senior Assistant Attorney General
Georgia Office of the Attorney General
Capital Litigation Section
40 Capitol Square, SW
Atlanta, GA 30334
(404) 458-3239
Respectfully submitted,
/s/ Marcia A. Widder
Marcia A. Widder (Ga. 643407)
Georgia Resource Center
104 Marietta Street NW, Suite 260
Atlanta, Georgia 30303
(404) 222-9202

